     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



September 21, 2011

Report Number: A-09-09-00114

Ron Chapman, M.D., M.P.H.
Director
California Department of Public Health
1615 Capital Avenue, MS 0500
Sacramento, CA 95899-7377

Dear Dr. Chapman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Unidentified and Unreported Federal Deficiencies in
California’s Complaint Surveys of Nursing Homes Participating in the Medicare and Medicaid
Programs. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-09-00114 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ron Chapman, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



 UNIDENTIFIED AND UNREPORTED
    FEDERAL DEFICIENCIES IN
CALIFORNIA’S COMPLAINT SURVEYS
OF NURSING HOMES PARTICIPATING
     IN THE MEDICARE AND
      MEDICAID PROGRAMS




                        Daniel R. Levinson
                         Inspector General

                         September 2011
                          A-09-09-00114
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare and Medicaid programs cover care in skilled nursing and nursing facilities
(nursing homes), respectively, for eligible beneficiaries. Sections 1819 and 1919 of the Social
Security Act provide that nursing homes participating in the Medicare and Medicaid programs,
respectively, must meet certain specified requirements (Federal participation requirements).
These sections also establish requirements for the Centers for Medicare & Medicaid Services
(CMS) and States to survey nursing homes to determine whether they meet Federal participation
requirements.

The State survey agency must, as set forth in Federal regulations at 42 CFR § 488.308(e)(2) and
in section 5300 of CMS’s State Operations Manual (the Manual), Pub. No. 100-07, review all
nursing home complaint allegations. Depending on the outcome of the review, the State survey
agency may conduct a standard survey or an abbreviated standard survey (complaint survey) to
investigate noncompliance with Federal participation requirements. A standard survey is an
inspection to gather information about the quality of resident care furnished in a nursing home.
A complaint survey normally does not cover all procedures included in a standard survey but
rather concentrates on areas of concern related to the complaint allegation.

Federal regulations (42 CFR § 488.301) define a nursing home’s noncompliance with Federal
participation requirements as a deficiency (Federal deficiency). The State survey agency must
report to the nursing home and CMS each Federal deficiency identified during a survey. The
reported information includes (1) a statement describing the deficiency, (2) a citation of the
specific Federal participation requirement that was not met, and (3) a rating for the seriousness of
the deficiency (deficiency rating).

Section 5060 of the Manual requires the State survey agency to enter complaint survey data into
the Automated Survey Processing Environment (ASPEN) system, including the ASPEN
Complaints/Incident Tracking System (ACTS). CMS uses complaint survey data to manage
enforcement activities and provide information to the public on its Nursing Home Compare Web
site. Nursing Home Compare rates the quality of nursing homes using a five-star rating scale.

In California, the Department of Public Health, Licensing and Certification Division (the
Division), is the designated State survey agency. Accordingly, the Division determines whether
nursing homes meet Federal participation requirements. The Division also determines whether
nursing homes comply with State laws and regulations (State requirements).

OBJECTIVE

Our objective was to determine whether the Division identified and reported Federal deficiencies
for unmet Federal participation requirements when conducting complaint surveys of nursing
homes from 2006 through 2008.




                                                 i
SUMMARY OF FINDINGS

The Division did not always identify and report deficiencies for unmet Federal participation
requirements when conducting complaint surveys from 2006 through 2008. For 24 complaint
surveys at 3 nursing homes that we judgmentally selected, the Division did not (1) identify
41 deficiencies for noncompliance with the Federal participation requirements associated with
the complaint surveys that cited State requirements, (2) determine the deficiency ratings for those
41 deficiencies, and (3) enter the Federal deficiencies and deficiency ratings into ACTS.

The Division’s policy and procedures for investigating complaints did not require State
surveyors to cite deficiencies for all unmet Federal participation requirements. Instead, the
policy and procedures permitted the State surveyors to cite violations of State requirements while
not citing the associated Federal requirements. As a result, the Division did not always identify
Federal deficiencies, determine deficiency ratings, and report the information to CMS.

According to CMS officials, it is unable to take immediate Federal enforcement action for
recurring deficiencies involving actual harm when the Division does not cite unmet Federal
participation requirements and enter deficiencies and deficiency ratings into ACTS. In addition,
omission of deficiencies and deficiency ratings from ACTS results in inaccurate information
provided to the public on the Nursing Home Compare Web site. According to a CMS official,
“If this information were available, it would present a more complete picture of the nursing
home’s compliance with Federal regulations.”

RECOMMENDATION

We recommend that the Division revise its policy and procedures for investigating complaints to
require State surveyors to identify and report deficiencies for all unmet Federal participation
requirements.

DIVISION COMMENTS

In written comments on our draft report, the Division disagreed with our recommendations.
Regarding our first recommendation, the Division stated that “… there are insufficient federal
funds to use the federal process in every instance where a federal deficiency could be written.”
Regarding our second recommendation (included only in our draft report), the Division
disagreed that it should revise its policy and procedures to require State surveyors to determine
ratings for Federal deficiencies identified and enter deficiencies and deficiency ratings into
ACTS. The Division stated that the policy and procedure for the Federal survey process is
spelled out in the Manual, which Division staff are required to follow.

The Division’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although we acknowledge the Division’s statement regarding insufficient Federal funds, the
policy and procedures for investigating complaints must fully comply with Federal requirements.


                                                 ii
After reviewing the Division’s comments, we modified our first recommendation to emphasize
that the policy and procedures require State surveyors to not only identify but also report
deficiencies for all unmet Federal participation requirements. We removed our second
recommendation from the report.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicare and Medicaid Coverage of Nursing Homes .......................................1
              Standard and Complaint Surveys of Nursing Homes ........................................1
              Federal Deficiencies and Deficiency Ratings ....................................................2
              CMS’s Management and Information Systems for Nursing Homes .................2
              California Survey Agency..................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................3
               Objective ............................................................................................................3
               Scope ..................................................................................................................3
               Methodology ......................................................................................................4

FINDINGS AND RECOMMENDATION.............................................................................4

          FEDERAL REQUIREMENTS FOR STATE SURVEY AGENCIES ..........................4

          DEFICIENCIES FOR UNMET FEDERAL PARTICIPATION REQUIREMENTS
           NOT IDENTIFIED OR REPORTED .........................................................................5

          INADEQUATE POLICY AND PROCEDURES .........................................................6

          IMPACT OF UNIDENTIFIED AND UNREPORTED
           FEDERAL DEFICIENCIES .......................................................................................7

          RECOMMENDATION .................................................................................................7

          DIVISION COMMENTS ..............................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8

APPENDIX

          DIVISION COMMENTS




                                                                    iv
                                             INTRODUCTION
BACKGROUND

Medicare and Medicaid Coverage of Nursing Homes

The Medicare and Medicaid programs cover care in skilled nursing and nursing facilities
(nursing homes), respectively, for eligible beneficiaries in need of nursing services, specialized
rehabilitation services, medically related social services, pharmaceutical services, and dietary
services. Sections 1819 and 1919 of the Social Security Act (the Act) provide that nursing
homes participating in the Medicare and Medicaid programs, respectively, must meet certain
specified requirements (Federal participation requirements). These sections also establish
requirements for the Centers for Medicare & Medicaid Services (CMS) and States to survey
nursing homes to determine whether they meet Federal participation requirements. These
statutory participation and survey requirements are combined in Federal regulations at
42 CFR part 483, subpart B, and 42 CFR part 488, subpart E, respectively.

Standard and Complaint Surveys of Nursing Homes

Section 1864(a) of the Act requires the Secretary of Health and Human Services to use the State
health agency, or other appropriate State agency, to determine whether nursing homes meet
Federal participation requirements. Further, section 1902(a)(33) of the Act requires the State to
use the same State agency to determine whether nursing homes meet the requirements for
participation set forth under the State Medicaid plan. Under the agreement with the Secretary
and under the State plan, the State agency must, as set forth in Federal regulations at 42 CFR
§ 488.308(e)(2) and in section 5300 of CMS’s State Operations Manual (the Manual), Pub. No.
100-07, review all nursing home complaint allegations. 1

Depending on the outcome of the review, the State survey agency may conduct a standard survey
or an abbreviated standard survey (complaint survey) to investigate noncompliance with Federal
participation requirements. Examples of noncompliance include a nursing home’s failure to
provide necessary treatment to promote healing of a resident’s pressure sore and failure to
provide nutritional services. Federal regulations (42 CFR § 488.301) define noncompliance with
Federal participation requirements as a deficiency (Federal deficiency).

A standard survey is a periodic nursing home inspection based on procedures specified in the
Manual. These procedures focus on a sample of residents selected by the State survey agency to
gather information about the quality of resident care furnished to Medicare and/or Medicaid
beneficiaries in a nursing home. A complaint survey normally does not cover all procedures
included in a standard survey but rather concentrates on areas of concern related to the complaint
allegation. A complaint survey may be expanded to a standard survey if evidence warrants a
more extensive review.




1
 An allegation of improper care or treatment of beneficiaries may come from a variety of sources, including
beneficiaries, family members, and health care providers.


                                                         1
Federal Deficiencies and Deficiency Ratings

The State survey agency must report each Federal deficiency identified during a survey on the
appropriate form 2 published by CMS and provide the forms to the nursing home and CMS.
These forms include (1) a statement describing the deficiency, (2) a citation of the specific
Federal participation requirement that was not met, and (3) a rating for the seriousness of the
deficiency (deficiency rating).

Federal regulations (42 CFR § 488.404(b)) require the State survey agency to determine the
deficiency rating using severity and scope components. Severity is the degree of or potential for
resident harm and has four levels: (1) potential for minimal harm, (2) potential for more than
minimal harm, (3) actual harm, and (4) immediate jeopardy. Scope is the number of residents
affected or pervasiveness of the deficiency in the nursing home and has three levels: (1) isolated,
(2) patterned, and (3) widespread.

Federal regulations (42 CFR § 488.408(b)) provide CMS and the State survey agency with the
authority to impose one or more enforcement remedies, such as correction plans directed by the
survey agency, State monitoring, denial of payment for all new Medicare and/or Medicaid
admissions, and civil monetary penalties. The deficiency rating guides the selection of the
appropriate remedy.

CMS’s Management and Information Systems for Nursing Homes

Section 5060 of the Manual requires the State survey agency to enter complaint survey data into
the Automated Survey Processing Environment (ASPEN) system, including the ASPEN
Complaints/Incident Tracking System (ACTS). The CMS Survey and Certification
Memorandum 04-43 requires enforcement activities to be entered into the ASPEN Enforcement
Manager (AEM).

    •   ACTS is designed to manage all complaint processing operations. Section 5060 of the
        Manual, page 11, states that because entry of information related to unmet Federal
        requirements into ACTS “… is essential to [CMS’s] … effective management of the
        survey and certification program, it is important that [survey agencies] complete the
        required fields in ACTS in a timely manner.”

    •   According to the CMS Survey and Certification Memorandum 04-43 (August 12, 2004),
        AEM is an enforcement tracking system used “… to improve the national system of
        quality assurance in nursing homes.” AEM enables CMS to manage enforcement
        activities to ensure that nursing homes remedy deficient practices and establish
        procedures that will sustain continued compliance. ACTS shares all complaint survey
        data with AEM.



2
 Form CMS-2567, Statement of Deficiencies and Plans of Correction, is used for all deficiencies except for
deficiencies determined to be isolated and with the potential for minimal harm. For these deficiencies, Form A,
Statement of Isolated Deficiencies Which Cause No Harm with Only a Potential for Minimal Harm, is used.


                                                         2
The complaint survey data are also used in information provided to the public on CMS’s Nursing
Home Compare Web site. Nursing Home Compare has information on every certified Medicare
and Medicaid nursing home, including information on quality-of-care deficiencies from
complaint surveys. Nursing Home Compare uses a five-star rating scale to help consumers, their
families, and caregivers compare nursing homes. A five-star rating represents the highest quality
rating. The determination of the star rating is based in part on the nursing home’s number of
Federal deficiencies and deficiency ratings that were identified during the three most recent
standard surveys and the most recent 36 months of complaint surveys.

California Survey Agency

In California, the Department of Public Health, Licensing and Certification Division (the
Division), is the designated State survey agency. Accordingly, the Division determines whether
nursing homes meet Federal participation requirements and recommends to CMS whether
nursing homes should be certified for participation in the Medicare and Medicaid programs. The
Division also determines whether nursing homes comply with State laws and regulations (State
requirements). According to the Division, in 2010, over 600 surveyors worked in teams at
18 district offices. The Division estimated that it performed surveys for over 1,275 nursing
homes, of which approximately 68 percent were occupied by Medicaid residents, and responded
to approximately 6,650 complaints.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Division identified and reported Federal deficiencies
for unmet Federal participation requirements when conducting complaint surveys of nursing
homes from 2006 through 2008.

Scope

We reviewed complaint surveys conducted from 2006 through 2008 at three nursing homes we
judgmentally selected. Three different district offices had oversight jurisdiction over these
nursing homes. We selected the nursing homes based on the number of residents admitted to the
hospital with diagnoses of bedsores and/or infections (indicating possible quality-of-care issues
at the nursing homes) and the number of beds in the nursing homes compared with other nursing
homes in the State. The nursing homes included both Medicare and Medicaid beneficiaries.

We did not review the overall internal control structure of the Division. Rather, we reviewed
only those internal controls related to our objective.

We performed our review from August 2009 to March 2011 and conducted fieldwork at the
Division’s offices in Sacramento and Chico, California, and at three district offices in Southern
California.




                                                 3
Methodology

To accomplish our objective, we

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   interviewed CMS program officials regarding the Division’s oversight responsibilities
       and CMS management information systems for nursing homes;

   •   interviewed Division management regarding survey operations, quality assurance, and
       training;

   •   interviewed district office supervisors and staff responsible for complaint surveys;

   •   reviewed Division policy and procedures for investigating complaints and training
       manuals for new surveyors and supervisors; and

   •   reviewed the results of 47 complaint surveys for the 3 nursing homes that we
       judgmentally selected and identified Federal regulations for deficiencies in which
       surveyors cited noncompliance with State requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The Division did not always identify and report deficiencies for unmet Federal participation
requirements when conducting complaint surveys from 2006 through 2008. For 24 complaint
surveys at 3 nursing homes that we judgmentally selected, the Division did not (1) identify
41 deficiencies for noncompliance with the Federal participation requirements associated with
the complaint surveys that cited State requirements, (2) determine the deficiency ratings for those
41 deficiencies, and (3) enter the Federal deficiencies and deficiency ratings into ACTS.

The Division’s policy and procedures for investigating complaints did not require State
surveyors to cite deficiencies for all unmet Federal participation requirements. Instead, the
policy and procedures permitted the State surveyors to cite violations of State requirements while
not citing the associated Federal requirements. As a result, the Division did not always identify
Federal deficiencies, determine deficiency ratings, and report the information to CMS.

FEDERAL REQUIREMENTS FOR STATE SURVEY AGENCIES

Federal regulations (42 CFR § 488.308(e)(2)) require the State survey agency to review all
complaint allegations, and, when warranted, conduct a survey to determine whether Federal


                                                4
deficiencies exist. For identified Federal deficiencies, 42 CFR § 488.404(b) requires the survey
agency to determine the deficiency ratings using severity and scope components.

In addition, 42 CFR §§ 488.18 and 488.26(d) require the survey agency to document deficiencies
and use the survey methods, procedures, and forms prescribed by CMS.

Section 5060 of the Manual requires the State survey agency to enter complaint survey data into
ACTS. Page 11 states:

        At a minimum, if the intake information requires an onsite survey and the
        allegation may involve both Federal and State licensure requirements, a Federal
        onsite survey is completed and entered into ACTS. If an investigation [complaint
        survey] finds one or more violations of Federal [participation] requirements, the
        findings must be cited under the appropriate tags [regulations] and entered into
        the Federal system even if the information is entered into a State licensure data
        system.

The ACTS Procedure Guide specifies how the State survey agency is to enter Federal
deficiencies and deficiency ratings into ACTS.

DEFICIENCIES FOR UNMET FEDERAL PARTICIPATION REQUIREMENTS
NOT IDENTIFIED OR REPORTED

Contrary to Federal requirements, the Division did not always identify and report deficiencies for
unmet Federal participation requirements when conducting complaint surveys from 2006 through
2008. Of the 47 complaint surveys reviewed for 3 judgmentally selected nursing homes,
24 surveys did not cite unmet Federal participation requirements. For those 24 surveys, we
identified 41 deficiencies for which the Division did not (1) identify the unmet Federal
participation requirements associated with the complaint surveys that cited State requirements,
(2) determine their deficiency ratings, and (3) enter the Federal deficiencies and deficiency
ratings into ACTS. Instead, the district offices cited only unmet State requirements.

For example, for a complaint survey conducted at one of the three selected nursing homes, the
district office did not identify the unmet Federal participation requirements and deficiency
ratings and report the required data to CMS. A nursing home resident was admitted to the
emergency room because of cardiac arrest. The district office received a report from the
ombudsman 3 that the resident showed signs of suspected neglect based on evidence of multiple
pressure sores and maggots coming from the resident’s ears. The district office’s complaint
survey found that three different licensed nurses at the nursing home observed a change in
condition of the resident’s right ear but did not report the change to the resident’s physician. The
complaint survey also determined that the wound care nurse documented in the medical record
that the resident’s right ear was treated on April 24, 2008, when no treatment was actually
provided.


3
 An ombudsman is an advocate for residents of nursing homes. The Long-Term Care Ombudsman Program is
administered by the Administration on Aging and exists in all States under the authority of the Older Americans Act.


                                                         5
Although a complaint survey was conducted, the district office did not (1) identify three unmet
Federal participation requirements, (2) determine their deficiency ratings, or (3) enter the
deficiencies and deficiency ratings into ACTS. Based on our review of the deficiency
description in the complaint survey, unmet Federal participation requirements included the
following:

    •    42 CFR § 483.10(b)(11)(i)(B), which requires the nursing home to immediately consult
         with the resident’s physician if there is a significant change in the resident’s physical,
         mental, or psychosocial status;

    •    42 CFR § 483.25(c), which requires the nursing home to provide necessary treatment for
         and prevention of pressure sores; and

    •    42 CFR § 483.75(l)(1)(i) and (ii), which require the nursing home to maintain complete
         and accurate clinical records.

Instead of citing these Federal participation requirements, determining the deficiency rating for
each deficiency, and entering the data into ACTS, the district office cited only the following
State requirements: (1) Title 22 of the California Code of Regulations (CCR), section
72311(a)(3)(B), for not promptly notifying the resident’s physician of an adverse change in
medical condition; (2) 22 CCR § 72313(c), for failure to administer medications and treatments;
and (3) 22 CCR § 72543(f), for failure to keep health records current based on service provided
to a patient.

INADEQUATE POLICY AND PROCEDURES

For the period October 2004 through September 2007, the Division’s policy and procedures for
investigating complaints required surveyors to cite unmet Federal participation requirements
only when surveyors identified substandard quality of care, 4 actual harm at a patterned or
widespread level, or immediate jeopardy. For other deficiencies, surveyors were required to cite
only State requirements. Effective October 2007, the policy and procedures instructed surveyors
to cite violation of either Federal or State requirements.

According to district office managers and supervisors, it is standard practice for the Division to
cite only State requirements but not always to identify or report the associated unmet Federal
participation requirements. As a result, the Division did not always determine the deficiency
rating for each Federal deficiency and enter that information into ACTS.

According to Division management, it began to implement a pilot program in August 2009 to
identify unmet Federal participation requirements for the most severe violations of State


4
  Pursuant to 42 CFR § 488.301, substandard quality of care means one or more deficiencies for unmet Federal
participation requirements under 42 CFR § 483.13 - Resident behavior and facility practices; 42 CFR § 483.15 -
Quality of life; or 42 CFR § 483.25 - Quality of care, with a deficiency rating that constitutes either immediate
jeopardy to resident health or safety, a pattern of or widespread actual harm that is not immediate jeopardy, or a
widespread potential for more than minimal harm.


                                                          6
requirements that are subject to financial penalties. However, the pilot program would not fully
comply with the Federal requirement for reporting unmet Federal participation requirements.

IMPACT OF UNIDENTIFIED AND UNREPORTED FEDERAL DEFICIENCIES

The Division’s failure to identify deficiencies for all unmet Federal participation requirements
and enter Federal deficiencies and deficiency ratings into ACTS results in incomplete data for
managing enforcement activities in the AEM. According to CMS officials, it is unable to take
immediate Federal enforcement action for recurring deficiencies involving actual harm when the
Division does not cite unmet Federal participation requirements and enter deficiencies and
deficiency ratings into ACTS.

In addition, omission of Federal deficiencies and deficiency ratings from ACTS results in
inaccurate information provided to the public on the Nursing Home Compare Web site.
According to a CMS official, “If this information were available, it would present a more
complete picture of the nursing home’s compliance with Federal regulations.” We could not
determine whether any of the 3 nursing homes reviewed would have received a lower star rating
if the Division had identified and reported the 41 Federal deficiencies.

RECOMMENDATION

We recommend that the Division revise its policy and procedures for investigating complaints to
require State surveyors to identify and report deficiencies for all unmet Federal participation
requirements.

DIVISION COMMENTS

In written comments on our draft report, the Division disagreed with our recommendations:

   •   Regarding our first recommendation, the Division stated that it instructs its surveyors to
       “begin the complaint investigation process from the standpoint of citing state regulations”
       and to also cite Federal deficiencies for the most severe violations of State requirements.
       According to the Division, “… there are insufficient federal funds to use the federal
       process in every instance where a federal deficiency could be written.”

   •   Regarding our second recommendation (included only in our draft report), the Division
       disagreed that it should revise its policy and procedures to require State surveyors to
       determine ratings for Federal deficiencies identified and enter deficiencies and deficiency
       ratings into ACTS. The Division stated that the policy and procedure for the Federal
       survey process is spelled out in the Manual, which Division staff are required to follow.

The Division’s comments are included in their entirety as the Appendix.




                                                7
OFFICE OF INSPECTOR GENERAL RESPONSE

Although we acknowledge the Division’s statement regarding insufficient Federal funds, the
policy and procedures for investigating complaints must fully comply with Federal requirements.
After reviewing the Division’s comments, we modified our first recommendation to emphasize
that the policy and procedures require State surveyors to not only identify but also report
deficiencies for all unmet Federal participation requirements. We removed our second
recommendation from the report.




                                               8
APPENDIX
                                                                                                                   Page 1 of7


                            APPENDIX: DNISION COMMENTS



                          State of California-Health and Human Services Agency
                        California Department of Public Health

RON CHAPMAN, MO. MPH

       ""'~


        August 25, 2011
                                                                                                         --
                                                                                                   £DMUND G. BROWN JR.




        Lori A . Ahlstrand, Regional Inspector General for Audit Services
        U .S. Department of Health & Human Services, Office of Inspector General 

        Office of Audit Services, Region IX 

        90 - 7th Street. Suite 3--650 

        San Francisco, CA 94103 


        Dear Ms. Ahlstrand :

        The California Department of Public Health (CDPH) has prepared and enclosed its
        response to the Department of Health & Human Services (HHS) Office of Inspector
        General (DIG) draft report entitled: · Unidentified and Unreported Federa l Deficiencies in
        California Nursing Home Complaint Surveys July 2011 Report A-09-09-00114. " The
        CD PH appreciates the opportunity to provide the OIG with its response .

        If you have any questions, please contact Karen Petruzzi, CDPH Audit Coordinator, at
        (916) 650-0266.

        Sincerely,

        Original signed by Kathleen Billingsley, Chief Deputy Director of Policy & Programs

        Ron Chapman, MD, MPH 

        Director 


        Enclosure




                        D,rectors Office. MS 0500. P.O. Box 99 7377. Sacramenl0. CA 95899·7377 

                                                       (91 6) S58· 1700 

                                          Inlemo-l Addles" YW"'" COPH CA Goy 

                                                                                                          Page 2 of7




    California Department of Public Health (CDPH) Response to the Department of Health & 

         Human Services (HHS) Office of Inspector General (OIG) Draft Report Entilled: 

                 Unidentified and Unreported Federal Deficiencies in California 

                               Nursing Home Complaint Surveys 

                                           July 2011 

                                       Report A-09·09-001 14 




RECOMMENDATION 1:

We recommend Ihat the Division revise lis policy and procedures for investigating
complaints to require State surveyors to identify deficiencies for all unmet Federal
participation requirements.

CDPH Response 1:

California Department of Public Health (CDPH) disagrees with the Office of Inspector General
(DIG) audit Recommendation 1 thai CDPH re ...ise its policies and procedures for investigating
complaints and incidents reported by facilities known as entity reported incidents (ER ls) to
reQuire state surveyors to identify deficiencies for all unmet federal participation requ irements .

licens ing and Certification (L8.C) takes direction from the Centers for Medicare and Medicaid
Services (CMS) as well as the California State Legislature. CDPH continually strives to balance
its activities in order to be responsive to both entities: CMS, who directs us to use the federal
complaint process, and state law which req uires us to issue citations under state mandates.

Surveyors are instructed in our Tra ining Academy to begin the complaint investigation process
from the standpoint of citing state reg ulations unless the deficient practice rises to the level of a
state citation (either B, A , or AA ). For those deficiencies where a B citation wi ll be issued,
surveyors may cite either sta te or federa l regulations, whichever is more appropriate, For those
investigations where an A or AA state citation will be issued, surveyors have been instructed to
cite federal regu lations and also issue a state citation. The reason for th is direction is that there
are insufficien t federal funds to use the federa l process in every instance where a federal
deficiency could be written.
    • 	 Table 1 displays the amount of funds awarded to California and the fina l expenditure
        amounts for the three previous federal grant applications for the workload presented in
        CMS ' Mission and Priorities call letter. This analysis demonstrates that California fully
        expended the amount of the award granted for Title 18 Medicare activities for each of
        these years.
        Table 2 reflects the amount of complaint and ERls, proposed to be investigated using
        the federal process, that California built into the planned federal grant workload for each
        year and the amount of work load actually completed. (California did not build in any
        compla int or ERI investigations for Federal Fiscal Year 2010.)
        Table 3 reports the total number of complaints and ERls received in each of the previous
        five yea rs for which the expectation is that the majority of these wi ll be investigated using
        the federal complaint process.

Historically over the last three years , CDPH has investigated approximately twenty-two percent
of comp laintsfERls received using the federa l process due to the limited funds awarded to
California under the grant.




                                            Page 1 of 3
                                                                                                                            Page 3 of7




                                                                                          HHS OIG Report A.·09--09.oo1 14
                                                                                                        CPDH R"spoose


             CDPH contends thai use of the state compla int process to investigate compla ints essentially
             meets the intent of the Mission and Priority document in thai complaints and ERls are
             investigated time ly. facilities are held accoun table, and the health aoo sa fety of residents are
             protected .

             The federal and slale comp laint process parallel one another, in thai the in take process begins
             in the same manner, with a complain t allegation being rece ived by the District Office,
             informat ion collected , and a proce ss followed which syste matically prioritizes the complaint
             workload. However. California statutes require long-term care (LTC) complaint investigations
             that are prioritized as Immediate Jeopardy to be initiated within twenty·four hours of receipt.
             California's process is more stringen t than the federal requirement which requires these
             complaints to be initiated within two working days. LTC complaints not fitting that description are
             Inyestigated within ten working day s under both federa l and sl ale complaint survey processes.

            As with the federal process outlined in the Sta te Operations Manual (SOM). Chapter 5.
            · Complaint Procedures." the state complaint process includes developing a plan to address
            each allegation. The investigation of complaints Indudes the use of observa tion. interview and
            reco rd review.

             Depen ding on other enforcement actions and survey timelines for a facility . the federal
             complaint enforcement action may require multiple revisits to put the provider back into
             compli ance before a termi nallon action is imposed.

            California cannot investigate additional complaints/ERls using the federal process without
            Jeopardizing other federal workload given the current federal funding approved in the grant.
            California has analyzed the time di fferential for conducting substantiated state and federa l
            complaints. Based on data obtained from th e Aspen Central Office da ta base, and Cali fornia's
            surveyor timekeeping data base, th is an alysis shows that federal complaint investigat ions
            average twenty-three and one half (23.5) hours. as compared 10 an average of thir:een and
            seven tenths (13.7) hours for subs tantiated complaints using the state complaint survey
            process. This time differential is substantial when compared to the number of complaInt and
            ERls received each year.

             RECOMMENDATION 2 :*

             Further, for Federal de fi c iencies iden tified, we recommend that the policy and
             procedures require State surveyors to determine ratings fo r th e def ic iencies and enter
             the deficiencies and deficiency ratings into ASPEN (Automated Survey Processing
             Environment) Complaintsllncldent Tracking System (ACTS ).

             CDPH Response 2:

            CDPH disagrees with the OIG audit Recommendation 2 that when federa l deficiencies will be
            written. CDPH's policies and procedures Will be amended to reference how to:

                    de termine ratings for the deficiencies, and
                •   enter the deficiencies inlo AC TS, and
                •   enler deficiency ratings into ACTS.

            The policy and procedure for the federal survey process is spelled out in the State Operation
            Manual (SOM - the manual provid ed to all stales by the federal government on how to conduct

                                                         Page 2 o f 3




* Office ofInspector General Note: We removed the second recommendatIOn from the final report.
                                                                                                             Page 4 of7




                                                                           HHS OIG RefIO'I A.()9.09-0011 ~
                                                                                         CPDHRes_


federa l work). The deficiency raling (called severity and scope) is inheren t in the federal survey
process and the SOM has specific procedures and guidance for determining the severity and
scope for deficiencies. All slaff have a copy of the SOM for reference. For complainlslER ls
where federa l regulations wi ll be cited, staff are required to follow the process in the SOM to
assign the appropriate severity and scope. All staff receive instruction during their training and
on-the·job mentoring on how to properly assign severity and scope for each deficiency cited,
following the procedures outlined in the SOM. The Department also has Quality Assurance (QA)
staff who provide rev iew and analysis of the survey work product. The Department actively
works with the QA staff and the training staff to provide feedback and additional training to
survey staff on following the federal policies and procedures in the SOM.

In addition, the federal database is hardwired to requ ire the rating and deficiencies to be entered
into the system in order for the finding to be accepted, uploaded to the federal database and
closed. If the severity and scope are not entered into the database the survey cannol be
uploaded and closed, thus forcing slaff 10 ensure severity and scope are entered into the
database.

No modifications to our policies are necessary.




                                           Page 3 of 3
                                                                                                                                                  Page 5 of7



                                                                                                                           , . .tIl




                                                                                                               T.... '



                                                                                       c._......'..."",.,011r....' .......;..... 

                                                                                       lAO' """'" .~"' "          W......d ~ri<on
                                                                                                          Aw . ... . . .




........., ...., ... H...."'" ,..,.." ,.",..,. . . . " >0'0 .............. ,. _ . _ " . ,,,. . ." • • 





                                                                                                                                      011"'." 

                                                                                                Page 6 of7




                                 Tabl ~   2




_.-

            Budgeted Compl ~ "t Worklo..t from P,e";o... Grant Applicationl




Nunl",
f.cihty
      ,

N""ln 8                           Nu" ing                                     Nu, ,,,,!!
, ..,lily                         F.dlily                                     Fatllily
                                                                                 ",
 ,...                                                      1.9111                          01
                                                           Page 7 of7




                         TABLE 3


Number of Complaints and Entity Reported Incidents for 

     Skilled Nursing Faci lities/Nursing Facilities 

             Received by Calenda r Yea r 





            Complaints      Reported Incidents

                                      ~~~
